Department of Homeland Security
   Ofﬁce of Inspector General

                   The Responsibilities of the 

            Office of Counternarcotics Enforcement 





OIG-10-80                                              April 2010
                                                             Office ofInspector General

                                                             U.s. Department of Homeland Security
                                                             Washington, DC 20528




                                                             Homeland                               I

                                                             Security

                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses how the DHS Office of Counternarcotics Enforcement has
implemented its statutory responsibilities. It is based on interviews with employees and
officials of relevant agencies and institutions, direct observations, and a review of
applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.

                                    ~~d.~
                                      Richard L. Skinner
                                      Inspector General
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1
 


Background ..........................................................................................................................2
 


Results of Review ................................................................................................................4
 


     Improved Relationships Will Facilitate CNE’s Policy Coordination Role ...................4 


     CNE’s Resource Analysis Role Has Developed Slowly .............................................11 


     An Operational Component Can More Effectively Discharge CNE’s “Track and 

     Sever” Responsibility...................................................................................................13 


     CNE Should Remain in the Office of the Secretary ....................................................17 


Management Comments and OIG Analysis ......................................................................17 


Appendices
     Appendix A:           Purpose, Scope, and Methodology.......................................................25 

     Appendix B:           Management Comments to the Draft Report .......................................26 

     Appendix C:           Management Directive 6400................................................................30 

     Appendix D:           Major Contributors to this Report........................................................33 

     Appendix E:           Report Distribution ..............................................................................34 


Abbreviations
     CBP                   Customs and Border Protection 

     CNE                   Office of Counternarcotics Enforcement 

     DEA                   Drug Enforcement Administration, Department of Justice 

     DHS                   Department of Homeland Security 

     EPIC                  El Paso Intelligence Center, Department of Justice 

     FBI                   Federal Bureau of Investigation, Department of Justice 

     ICE                   Immigration and Customs Enforcement 

     IRTPA                 Intelligence Reform and Terrorism Prevention Act of 2004 

     JTTF                  Joint Terrorism Task Force 

     NDIC                  National Drug Intelligence Center, Department of Justice 

     OIA                   Office of International Affairs 

     ONDCP                 Office of National Drug Control Policy, Executive Office 

                           of the President 

     PA&E                  Program Analysis & Evaluation 

     SOD                   Special Operations Division, Drug Enforcement Administration 

     USCG                  United States Coast Guard 

     USIC                  United States Interdiction Coordinator 

OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                  This report assesses the effectiveness of the Office of
                  Counternarcotics Enforcement. The office, created in 2004 by the
                  Intelligence Reform and Terrorism Prevention Act, is charged with
                  coordinating Department of Homeland Security counternarcotics
                  policies, ensuring the adequacy of the department’s
                  counternarcotics resources, reviewing agency budgets, tracking
                  and severing drug-terror connections, and representing the
                  department in counternarcotics working groups and other entities.

                  We evaluated whether the office has fulfilled its statutory
                  responsibilities. Some staff in the Office of Counternarcotics
                  Enforcement we interviewed, as well as personnel at other
                  agencies, expressed concern about the office’s ability to
                  accomplish its mandates. As we examined the office’s
                  performance, we identified an assortment of challenges that have
                  hampered staff and diminished mission effectiveness.

                  We determined that the office faces inherent difficulties. Although
                  the office has had trouble fulfilling statutory responsibilities, it
                  could be more efficient and effective by establishing better
                  relationships with partners, coordinating counternarcotics policy,
                  and ensuring the adequacy of the department’s interdiction
                  resources. We are making nine recommendations to enhance the
                  ability of the office to meet its various responsibilities. The Office
                  of Counternarcotics Enforcement concurred with six of those
                  recommendations.




             The Responsibilities of the Office of Counternarcotics Enforcement 


                                           Page 1 

Background
                         Among many responsibilities, the Department of Homeland
                         Security (DHS) is charged with preventing the entry of illegal
                         drugs into the United States and diminishing the threat of drug
                         trafficking, the world’s most lucrative criminal activity.1 Reducing
                         this threat is of special interest to the department because some
                         terrorists finance operations with money raised through narcotics
                         trafficking. For example, terrorists financed the 2004 Madrid train
                         bombings mainly through the sale of hashish.2 In 2008, a Drug
                         Enforcement Administration (DEA) assistant administrator noted
                         that Hamas and Hezbollah remain active in the South American
                         drug trade.3 Even if these groups do not directly threaten the
                         United States, narcotics traffickers have the capacity to destabilize
                         friendly governments, undermine U.S. foreign policy, and generate
                         widespread violence.

                         Several DHS components have a role in counternarcotics activities.
                         Four prominent DHS players are illustrated in Table 1.

                         Table 1. Counternarcotics Roles of Various DHS Entities

                          Entity                                        Counternarcotics Roles
                                                Interdict narcotics while facilitating the flow of legitimate
                    Customs and Border
                                                travel and commerce along U.S. land borders and at ports
                      Protection
                                                of entry.
                                                Assist communication and information exchange among
                Intelligence & Analysis         law enforcement agencies; process information on border
                                                threats to produce intelligence products.
                                                Develop drug seizure leads on money laundering networks
                    Immigration and
                                                and drug trafficking organizations; participate in joint
                Customs Enforcement
                                                investigations; and reduce illegal arms trafficking.
                                                Coordinate maritime security; decrease maritime
                    United States Coast
                                                vulnerability; and interdict narcotics in the maritime
                        Guard
                                                environment.

                         Other parts of the department, such as the Science and Technology
                         Directorate and the Federal Law Enforcement Training Center also
                         play a role in the counternarcotics field. Because these diverse

1
  Drug Trafficking and Middle Eastern Terrorist Groups: A Growing Nexus?, July 2008, 

www.washingtoninstitute.org/print.php?template=C05&CID=2914 

2
  The Money Trail: Finding, Following, and Freezing Terrorist Finances, November 2008, page 51.
 

www.washingtoninstitute.org/pubPDFs/PolicyFocus89.pdf 

3
  Drug Trafficking and Middle Eastern Terrorist Groups: A Growing Nexus?, July 2008, 

www.washingtoninstitute.org/print.php?template=C05&CID=2914 


                    The Responsibilities of the Office of Counternarcotics Enforcement

                                                 Page 2
                         counternarcotics missions would require coordination, the 2002
                         Homeland Security Act established the position of DHS
                         Counternarcotics Officer to facilitate policy implementation,
                         review agency counternarcotics budgets, and sever links between
                         drug traffickers and terrorists. The Intelligence Reform and
                         Terrorism Prevention Act of 2004 (IRTPA) replaced the
                         Counternarcotics Officer with the Office of Counternarcotics
                         Enforcement (CNE).4 A 2005 DHS management directive
                         established the Director of CNE as the Secretary’s principal
                         advisor on the adequacy of DHS counternarcotics resources.5 The
                         management directive is attached as Appendix C.

                         Section 7407(e) of IRTPA states that the CNE Director is required:

                         �	 “To coordinate policy and operations within [DHS], between
                            [DHS] and other Federal departments and agencies, and
                            between [DHS] and State and local agencies with respect to
                            stopping the entry of illegal drugs into the United States;
                         �	 To ensure the adequacy of resources within [DHS] for stopping
                            the entry of illegal drugs into the United States;
                         �	 To recommend the appropriate financial and personnel
                            resources necessary to help [DHS] fulfill its responsibility to
                            stop the entry of illegal drugs into the United States;
                         �	 Within the Joint Terrorism Task Force construct to track and
                            sever connections between illegal drug trafficking and
                            terrorism; and
                         �	 To be a representative of [DHS] on all task forces, committee,
                            or other entities whose purpose is to coordinate the
                            counternarcotics enforcement activities of [DHS] and other
                            Federal, State or local agencies.”6

                         As an independent office that reports directly to the DHS
                         Secretary, CNE oversees DHS counternarcotics policy and
                         resource allocation, but does not control DHS operations.7 The
                         2002 Homeland Security Act had given the Counternarcotics
                         Officer the title of United States Interdiction Coordinator (USIC), a
                         position statutorily charged with coordinating interagency
                         counternarcotics efforts.8 When IRTPA established CNE, the
                         statute did not give the CNE Director the USIC role. IRTPA
                         assigns responsibility for naming the USIC to the Office of

4
  6 U.S.C. § 458. 

5
  DHS Management Director 6400, “Office of Counternarcotics Enforcement Mission and Functions,” 

October 2005. 

6
  6 U.S.C. § 458(d) 

7
  6 U.S.C. § 458(e). 

8
  Office of National Drug Control Policy Reauthorization Act of 2006, P.L. 109-469. 


                    The Responsibilities of the Office of Counternarcotics Enforcement

                                                 Page 3
                  National Drug Control Policy (ONDCP). ONDCP is not required
                  to select CNE’s Director as the USIC. However, CNE does have a
                  role on the Interdiction Committee, a group of 13 agencies, which
                  serves as an advisory board to the USIC and ONDCP.

Results of Review
          CNE has encountered difficulties meeting its statutory responsibilities.
          Several factors have contributed to this. The inability of CNE to gain and
          empower agency liaisons has limited the office’s role as a policy
          coordinator. Moreover, CNE has not fully implemented its responsibility
          to be a DHS counternarcotics representative. Although CNE needs to
          conduct reviews of agency budgets, we determined that this role has not
          been developed. We also concluded that CNE’s statutory responsibility to
          track and sever drug-terror connections was more appropriately suited for
          another component. CNE has the potential to function successfully while
          meeting statutory mandates. Much work is needed to make CNE the
          dynamic organization envisioned in statute.

     Improved Relationships Will Facilitate CNE’s Policy 

     Coordination Role 

                  CNE Has Helped Develop Some Strategy Documents

                  Prior to 2009, CNE achieved little regarding the statutory mandate
                  to coordinate DHS counternarcotics policy and operations.
                  Because of the extensive counternarcotics experience in the
                  operational components that joined the department, CNE staff had
                  a limited ability to lead efforts to coordinate activities.
                  Components outside of CNE perceived that the office did not have
                  the experience or resources to coordinate general DHS efforts.
                  Even with clear statutory authority and support from Management
                  Directive 6400, CNE could not implement its mandates.
                  Interviewees from DHS operational components noted that early
                  efforts from CNE had little measurable value.

                  CNE has contributed to the development of three strategy
                  documents: the National Southwest Border Counternarcotics
                  Strategy, the Northern Border Counternarcotics Strategy, and the
                  Maritime Border and Transit Zone Counternarcotics Strategy.

                  ONDCP, within the Executive Office of the President, among
                  other duties, oversees counternarcotics efforts of federal agencies.
                  For the National Southwest Border Counternarcotics Strategy,
                  ONDCP designated CNE as a lead agency to develop the strategy,

             The Responsibilities of the Office of Counternarcotics Enforcement

                                          Page 4
     along with the Department of Justice. The National Southwest
     Border Counternarcotics Strategy focused on reducing the flow of
     illegal drugs, drug proceeds, and correlated methods of violence
     across the United States-Mexico border. This document also
     addressed the roles that the outgoing flows of illegal currency and
     weapons play in sustaining drug cartels.

     CNE also helped develop two other strategies, the Northern Border
     Counternarcotics Strategy and Maritime Border and Transit Zone
     Counternarcotics Strategy, to articulate how DHS will address the
     full range of geographic threats and entry points for illegal drugs.
     Many staff in other components commented favorably regarding
     CNE’s contribution to these strategies. However, some believed
     that CNE merely compiled the work of others, or fulfilled a role
     that another entity could have completed. Although there is
     disagreement about CNE’s contributions, CNE gained important
     experience working with other agencies in the creation of these
     documents.

     In May 2009, a CNE analyst began to develop a counternarcotics
     doctrine. This document would establish a commonality of
     purpose to the range of DHS counternarcotics activities, essentially
     creating a roadmap for DHS entities. To establish an overall
     strategic direction in the counternarcotics area, this basic document
     should have been created during the first few months of CNE’s
     existence. The draft doctrine, completed in July 2009, included
     eight tenets designed to link the department’s counternarcotics
     effort through a common approach to fundamental principles.
     When finalized, the doctrine will set the standard for DHS
     counternarcotics components to maintain adequate interdiction
     resources and promote continued partnerships and the evaluation
     of program efficiencies.

     The Deputy Secretary received the draft doctrine in October 2009.
     Such a delay is a testament to CNE’s slow progress during the
     early years. The office is currently making positive strides toward
     becoming the coordinator of DHS counternarcotics policy.

     The Requirement for Component Liaisons Has Not Been
     Fulfilled

     Effective interaction with components is necessary for CNE to
     create credible policy documents. However, these important
     relationships did not develop quickly. Prior to its work on the
     strategy documents, CNE did not achieve much in the policy
     coordination area. CNE’s role as a policy coordinator created

The Responsibilities of the Office of Counternarcotics Enforcement

                             Page 5
                              areas of overlap among various components. For example, United
                              States Coast Guard (USCG) interviewees said that CNE’s work on
                              the Maritime Strategy was somewhat duplicative with operational
                              documents in the maritime interdiction field. In addition, concerns
                              existed regarding the quality of CNE’s work. For example, some
                              members of the USCG believed that CNE’s contribution to a
                              strategy on Self-Propelled Semi-Submersible watercraft was
                              incomplete and inaccurate. According to a USCG member, the
                              USCG offered to rewrite the strategy for CNE, but CNE published
                              the document before the rewrite could occur.

                              CNE would have broader and more effective interaction with
                              component experts if DHS implemented one of the basic
                              requirements of the statute. Congress directed that9

                                The Secretary shall designate senior employees from each
                                appropriate subdivision of the Department that has significant
                                counternarcotics responsibilities to act as a liaison between that
                                subdivision and the Office of Counternarcotics Enforcement.

                              We were unable to determine that this has occurred. Employees
                              from the GS-13 to GS-15 level have been detailed to CNE from
                              Customs and Border Protection (CBP) and Immigration and
                              Customs Enforcement (ICE). The duties, responsibilities, or
                              authorities of these detailees have not been well documented. On
                              occasion, these employees have been referred to as liaisons;
                              however, they have not served as meaningful liaisons. The USCG
                              also provided staff to CNE, but these individuals performed duties
                              to support the USIC, rather than to meet the statutory liaison role.

                              We believe that it is not the intent of the statute to mandate
                              detailees, but rather to identify a senior individual in ICE, CBP,
                              and the USCG to serve in their own component as the principal
                              counternarcotics liaison with CNE. This would enhance the ability
                              of CNE to coordinate counternarcotics policy. The absence of
                              liaisons in DHS operational components has hampered CNE’s
                              effectiveness.

                              According to data we received, CNE had 14 detailees between
                              June 2004 and May 2007. Nine of these individuals were from
                              organizations outside of DHS. CNE currently has one detailee,
                              who represents the National Security Agency. Because the statute
                              focuses on DHS staff, this individual and the bulk of CNE’s
                              previous detailees would not meet statutory intent.
9
    6 USC § 458(b)(2).

                         The Responsibilities of the Office of Counternarcotics Enforcement

                                                      Page 6
     Interviewees from both in and outside CNE noted that employees
     detailed from other components to work in CNE did not have an
     established role, position descriptions, or meaningful work. Our
     review revealed that there were only two written agreements issued
     for CNE detailees through May 2007. The agreements assigned
     limited specific duties, but few fully defined roles. Institutional
     support for the employees on detail did not exist, which cost CNE
     its ability to establish long-term, productive relationships with
     DHS components. This disconnect must be corrected.

     The management directive conflicts with the statutory language in
     IRTPA with respect to liaisons. The statute requires the Secretary
     to designate component liaisons, while the management directive
     states that the CNE Director may request liaisons from
     components, which will select the employee.

     Interviewees at components with a counternarcotics mission
     informed us that the ineffective liaison support has diminished
     CNE’s ability to articulate policy. In one instance, a component’s
     employee noted that CNE included incorrect information in a
     strategy document that a liaison could have corrected. Through a
     comprehensive liaison program, CNE could create a viable policy
     coordination vision for DHS. Without effective liaisons, CNE has
     a diminished ability to create true partnerships with the
     components that have a counternarcotics mission. New liaison
     policy could also further define the role of detailees, solidify their
     positioning in CNE, and improve their interaction with CNE staff.

     In addition to improving policy coordination, greater use of senior
     liaisons and mid-level detailees should diminish the potential for
     duplication across components. For example, at the request of
     ICE’s Assistant Secretary, CNE initiated a contract to study how
     drug traffickers used criminal proceeds. This study included
     discussions of bulk cash smuggling and its effect on the flow of
     illicit narcotics. CNE staff said, however, that the office did not
     contact experts at ICE’s Bulk Cash Smuggling Center to determine
     whether ICE had already completed or had a study in progress
     before initiating the $500,000 contract. Although initiated at the
     request of ICE leadership, CNE should have contacted ICE’s bulk
     cash smuggling experts before beginning the work. An ICE liaison
     would have been able to facilitate interaction between CNE and
     ICE experts to determine the proper focus for this effort, or to
     prevent possible duplication.



The Responsibilities of the Office of Counternarcotics Enforcement

                             Page 7
     As the liaison role is developed, CNE must ensure that its policy
     coordination role is appropriately empowered. Although the
     creation of strategy documents provided some experience, CNE is
     not completely functioning as the department’s coordinator of
     counternarcotics policy. New guidance is necessary to clarify the
     meaning of CNE’s policy coordination role, because the 2005
     directive did not specify how DHS offices would interact to
     implement CNE’s policy coordination mandate. A new directive
     should require component liaisons and CNE staff to form a
     partnership to achieve cooperation between operational
     components of the department and CNE.

     We recommend that the Secretary:

     Recommendation #1: Formally designate, in accordance with the
     Intelligence Reform and Terrorism Prevention Act, a senior
     position in the USCG, CBP, and ICE as Counternarcotics Liaison
     Officer.

     We recommend that the Director, Office of Counternarcotics
     Enforcement:

     Recommendation #2: Create position descriptions and supporting
     documents that specifically describe the duties and responsibilities
     of detailees assigned to CNE.

     Recommendation #3: Develop a counternarcotics policy
     coordination directive that would describe the procedures CNE
     would follow to fulfill its statutory mandate to coordinate
     component counternarcotics policies.

     CNE Has Attempted to Improve Its Role as a DHS 

     Representative 


     Unlike CNE, the department’s legacy agencies have longstanding
     linkages to federal and state partners. These relationships facilitate
     accomplishment of counternarcotics operations across levels of
     government. A list of regular meetings that CNE staff attends
     demonstrates that CNE staff has some connections with the
     interagency community, but the responsibility to be a
     representative of the department still needs development. CNE has
     given more emphasis to external partnerships recently and plans to
     continue to stress the importance of CNE’s external partnerships.
     Efforts to expand its role as a DHS representative include the
     creation of the DHS Counternarcotics Coordinating Council. This
     council includes senior leaders from DHS components that have

The Responsibilities of the Office of Counternarcotics Enforcement

                             Page 8
     drug interdiction and departmental policy formation responsibility.
     These individuals advise the CNE Director in the fulfillment of his
     statutory duties. We did not evaluate the Council’s role or its
     effectiveness.

     CNE’s attendance at various meetings and working groups has not
     always been productive. A staff member who attends several
     interagency meetings each week said that experts at other entities
     are not familiar with CNE’s work or mission. Thus, CNE’s good
     faith efforts to fulfill its representation responsibility are hindered
     because of its limited power and relatively few accomplishments
     during the office’s early years.

     DHS Management Directive 6400 made the CNE Director the
     principal coordinating official for all DHS counter drug policy
     matters. However, in early 2009, CNE’s former acting director
     wrote a memorandum to ICE seeking support for CNE’s inclusion
     in DEA’s Special Operations Division (SOD). The SOD targets
     major drug trafficking and narcoterrorism organizations. With a
     presence at the SOD, CNE could interact with partners as a way to
     expand its policy coordination and DHS representation roles.
     Because of its mandate, CNE should have been able to address its
     request directly to DEA or other offices. Moreover, that request
     could have been made as early as 2005. This absence from an
     important interagency counternarcotics entity has diminished
     CNE’s ability to coordinate policy and establish external
     partnerships.

     Section 7407(e)(1) of IRTPA makes partnerships with state, local,
     and tribal entities an explicit requirement for CNE, but the office
     has conducted little outreach in this area. One staff member noted
     that CNE created a 20-page state and local outreach document, but
     the document was dramatically edited and not used. There was
     also limited interaction between CNE and state governments when
     the office served as the co-chair for development of the
     implementation plan for the 2007 National Southwest Border
     Counternarcotics Strategy. The states’ contributions to the plan
     might have aided in the development of a more comprehensive
     document. For the 2009 border strategy, CNE did solicit
     comments from 160 state, local, and tribal officials. Although
     fewer than 20 state, local, or tribal officials responded, CNE’s new
     Director, confirmed in December 2009, is poised to develop better
     relationships with partners. The office should continue to conduct
     more useful interaction with state, local, and tribal governments.



The Responsibilities of the Office of Counternarcotics Enforcement

                             Page 9
                           To make this new emphasis more effective, a formalized approach,
                           through the establishment of a standard operating procedure, is
                           necessary. This will create an opportunity for CNE to learn more
                           about state, local, and tribal operations and how interaction at those
                           levels can help ensure that CNE fully meets its policy coordination
                           responsibility.

                           We recommend that the Director, Office of Counternarcotics
                           Enforcement, working with the Office of the Secretary:

                           Recommendation #4: Establish a presence at the DEA Special
                           Operations Division to facilitate the statutory requirements to be a
                           representative of the department and facilitate policy coordination.

                           We recommend that the Director, Office of Counternarcotics
                           Enforcement, working with the Assistant Secretary for State and
                           Local Law Enforcement:

                           Recommendation #5: Create a standard operating procedure that
                           establishes policies for CNE’s interaction with state, tribal, and
                           local law enforcement agencies.

                           CNE Cannot Effectively Coordinate Counternarcotics
                           Operations

                           DHS operational components work in the field to stem the flow of
                           narcotics into the United States. CBP seizes nearly four tons of
                           narcotics daily, while the USCG, as part of its statutory duties,
                           interdicts narcotics in the maritime environment.10 ICE uses its
                           range of investigative capabilities to provide additional support to
                           the department’s counternarcotics operations.

                                                       6 U.S.C. § 458(e)
                             Nothing in this section shall be construed to authorize direct
                             control of the operations conducted by the Directorate of Border
                             and Transportation Security {CBP and ICE}, the Coast Guard, or
                             joint terrorism task forces.

                           Because CNE has no operational authority, it should not serve as
                           the coordinator of DHS operations. For example, according to the
                           Northern Border Counternarcotics Strategy, various agencies are
                           assigned action items, while CNE’s charge is sharing information
                           about the drug-terror nexus with the Office of Intelligence &

10
     Performance and Accountability Report, Fiscal Year 2008, Customs and Border Protection

                      The Responsibilities of the Office of Counternarcotics Enforcement

                                                   Page 10
                            Analysis, ICE, CBP, and the USCG. CNE can coordinate policy
                            and formulate strategy, but implementation of these items is the
                            responsibility of entities with the ability to conduct operations,
                            such as CBP, ICE, and the USCG.

                            The management directive, unlike the statute that created CNE,
                            does not make CNE a coordinator of DHS counternarcotics
                            operations. Rather, the directive states that CNE is to function as
                            “the principal coordinating official for all DHS counter drug policy
                            matters.” We view this language as a more reasonable articulation
                            of CNE’s capabilities. CNE’s leadership should seek a legislative
                            change to ensure recognition of its nonoperational status by not
                            positioning the office as a coordinator of counternarcotics
                            operations. The USIC and the Interdiction Committee can work
                            with DHS components on operational coordination, but this role is
                            not a good use of CNE’s resources.

                            We recommend that the Director, Office of Counternarcotics
                            Enforcement:

                            Recommendation #6: In the next report to Congress, recommend
                            that CNE coordinate policy only, rather than policy and operations.

           CNE’s Resource Analysis Role Has Developed Slowly
                    CNE is required to ensure the adequacy of DHS counternarcotics
                    resources and to recommend the appropriate financial and personnel
                    resources that will allow DHS to interdict illegal drugs.11 CNE must also
                    provide Congress an annual budget review that identifies how proposed
                    funding levels could affect departmental counternarcotics activities.12
                    CNE has not fully met these responsibilities.

                    Recommending the proper level of counternarcotics resources is
                    complicated because the DHS components with counternarcotics
                    operations – USCG, CBP, and ICE – are multi-mission agencies. These
                    components engage in various types of work that might be unrelated to
                    counternarcotics operations. CBP and USCG aircraft on patrol interdict
                    migrants, contraband, or narcotics, all simultaneously. Thus, it is difficult
                    for budget analysts to quantify DHS resources used specifically to
                    interdict drugs. Establishing a precise dollar amount for the
                    counternarcotics portion of components’ work is therefore complicated.



11
     6 USC § 458(d)(2) and (3).
12
     6 USC § 458(f)(1).

                       The Responsibilities of the Office of Counternarcotics Enforcement

                                                    Page 11
The Program Analysis and Evaluation (PA&E) staff in the DHS Office of
the Chief Financial Officer manages the annual DHS resource allocation
process, which projects components’ needs to meet program objectives.
Departmental components develop their budgets after resource allocation
decisions are made. PA&E experts provided information about CNE’s
contribution to the annual process. CNE’s contribution has helped clarify
ONDCP policy guidance, strategy implementation, and air/marine
resource discussions. PA&E staff noted that CNE’s position outside of
operational components ensures that the resource allocation process has
perspective on general DHS counternarcotics goals. PA&E staff said this
type of information obtained at the early stage of the budget process could
be very useful.

Nonetheless, PA&E staff said CNE does not have sufficient influence
because it has not historically had much interaction directly with ICE,
CBP, and USCG budget experts. Therefore, CNE has not been able to
interact successfully with legacy counternarcotics agencies on budget
matters. Additionally, CNE has only one full-time budget analyst. This
staffing constraint has decreased the office’s ability to provide expertise to
the resource allocation teams that consider how agencies can meet
departmental objectives.

DHS counternarcotics components historically submitted budgets to
ONDCP and the Office of Management and Budget instead of CNE.
Without the ability to review agency budgets, CNE cannot perform its
responsibilities. We learned that the USCG submitted its FY2011 budget
to CNE directly. This is a positive sign. However, DHS should establish
a standard operating procedure for the DHS counternarcotics budget
process that will clearly set forth CNE’s counternarcotics budget
authorities. Moreover, the new procedure must place requirements on
DHS counternarcotics agencies to submit timely budget information to
CNE.

CNE staff also noted that even with a budget review authority, the office
cannot change specific line items submitted by the USCG, CBP, or ICE.
However, CNE can be given greater authority to analyze DHS
counternarcotics spending in a strategic manner. A PA&E official said
that such a role would help the department understand where the marginal
dollar is best spent. Through such analysis, CNE could find potential
efficiencies in the DHS interdiction effort, such as the sharing of air assets
between the USCG and CBP. This type of analysis would be of interest to
Congress, because one of CNE’s statutory requirements is to recommend
changes to improve the performance of DHS counternarcotics




   The Responsibilities of the Office of Counternarcotics Enforcement

                                Page 12
                   responsibilities.13 We acknowledge that CNE would need more staff to
                   conduct this analysis.

                   CNE’s annual reports to Congress have not strategically analyzed budget
                   and resource issues. Congress, in FY2009 appropriations language,
                   concluded that CNE’s reports are often late and not substantive. Advice
                   from CNE on how DHS can improve resource allocation is in line with the
                   statute and the Director’s role as the Secretary’s primary counternarcotics
                   advisor. Developing greater analytical capability on budget and resource
                   issues, with timely advice to Congress, should become a CNE priority.

                   Currently CNE has only one analyst devoted to DHS budget work.
                   Additional staffing is necessary for CNE to attend more PA&E resource
                   allocation team meetings and to conduct more strategic analysis of DHS
                   counternarcotics resources. ONDCP officials said that CNE cannot meet
                   statutory mandates related to DHS counternarcotics budget issues with its
                   current staffing level.

                   We recommend that the Director, Office of Counternarcotics
                   Enforcement, with participation from the Office of Chief Financial Officer
                   and the Office of the Secretary:

                   Recommendation #7: Develop a standard operating procedure for the
                   DHS budget process that provides CNE an opportunity to review and
                   make recommendations on component budget requests before adoption by
                   the Office of the Chief Financial Officer.

                   Recommendation #8: Conduct ongoing strategic analysis of DHS
                   counternarcotics spending and resources across components.

           An Operational Component Can More Effectively Discharge
           CNE’s “Track and Sever” Responsibility
                   One of the primary missions DHS assumed upon its inception was to:

                     . . . monitor connections between illegal drug trafficking and
                     terrorism, coordinate efforts to sever such connections, and
                     otherwise contribute to efforts to interdict illegal drug trafficking.

                   Congress used similar language in giving CNE the responsibility to track
                   and sever drug-terror connections within the Joint Terrorism Task Force
                   (JTTF) construct.14 The Federal Bureau of Investigation (FBI) established

13
     6 USC § 458 (f)(2)(D). 

14
      6 USC § 111(b)(1)(H) and 6 USC § 458(d)(4). 


                       The Responsibilities of the Office of Counternarcotics Enforcement 


                                                    Page 13
 

JTTFs as a primary interagency resource to fight terrorism. JTTFs strive
to coordinate anti-terrorism activities across all levels of government. The
FBI established a National JTTF at its headquarters.

Only an operational component can sever drug-terror connections.
However, Congress expressly kept CNE from having control over CBP,
ICE, USCG, or JTTF operations. Such control is not necessary for CNE
to accomplish some goals, such as policy coordination or budget reviews,
but counternarcotics agencies have a range of field experience and
authority that CNE cannot duplicate.

Various interviewees said that even a component with interdiction
authorities could find a track and sever mission difficult. A definitive link
between narcotics traffickers and terrorists might be unknown to an
interdicting agency, meaning that a nexus would be established in some
cases only after further agency analysis or a subsequent FBI investigation.
Thus, components generally cannot make operational interdiction and
budgetary decisions based on the motivation behind illicit activities.

Tracking drug-terror connections is possible to some degree at CNE, but
only law enforcement components can take action to sever links between
narcotics and terrorism. In April 2009 Congressional testimony, CNE’s
former Acting Director said that the office promotes information sharing
to help accomplish the track and sever mission. To this end, CNE
contributes reports and analysis to Intellipedia, an information sharing
Internet tool used by the intelligence community. Documentation we
received during our fieldwork revealed that some experts were satisfied
with CNE’s Intellipedia work.

Nonetheless, one CNE staff member was “mystified” that CNE was given
the operational function of severing the drug-terror connection. Another
CNE staff member with experience at the National JTTF said that CNE
cannot sever the narco-terror nexus. Additional interviewees noted that
other organizations analyze and report on the drug-terror problem, which
means that CNE could be duplicating other entities’ efforts.

Many federal entities are involved in counternarcotics intelligence and
operational analysis. DEA’s International Narcoterrorism Operations
Center, for example, serves as the central point of contact to track
terrorism-related leads and share data with other agencies. Additionally,

   �	 DEA’s El Paso Intelligence Center (EPIC) brings together
      representatives from national and state agencies to coordinate
      counternarcotics operations, including possible links between drug
      traffickers and terrorism.


   The Responsibilities of the Office of Counternarcotics Enforcement

                                Page 14
                     �	 The Department of the Treasury’s Office of Terrorism and
                        Financial Intelligence targets terrorists and drug traffickers using
                        intelligence and statutory authorities.15
                     �	 The Crime and Narcotics Center at the Central Intelligence Agency
                        works to track, analyze, and report on the drug trade’s effect on
                        U.S. national security interests.
                     �	 The Joint Interagency Task Force – South monitors illicit
                        activities, with a primary goal to eliminate the flow of drugs into
                        the country. Congress recently praised this entity for its
                        coordination of counternarcotics operations across the
                        government.16
                     �	 The United States Southern Command collaborates with friendly
                        nations to interdict illegal narcotics and conduct operations against
                        narcoterrorist organizations.

                 Perhaps most significant of all, the National Drug Intelligence Center
                 (NDIC), coordinates all law enforcement information related to the
                 structure and activities of drug traffickers. NDIC, part of the Department
                 of Justice, releases an annual National Drug Threat Assessment, a
                 comprehensive review of narcotics trafficking and related issues. NDIC
                 staff has worked on narcotics intelligence issues for many years. In 1993,
                 NDIC compiled information regarding the structure, membership,
                 finances, communications, and activities of drug trafficking organizations.
                 Before the terrorist attacks on September 11, 2001, ONDCP designated
                 NDIC as the principal center for domestic strategic counterdrug analysis.
                 The NDIC continues to focus on production of strategic domestic drug
                 intelligence assessments. As part of its mandate, NDIC creates a range of
                 documents, such as Drug Market Analyses for each of the 32 High
                 Intensity Drug Trafficking Areas in the United States. These documents
                 discuss drug-related issues and developments that focus on significant
                 trends and law enforcement concerns.

                 CNE’s drug-terror nexus reports have included useful information, but
                 since so many other entities have intelligence gathering and information
                 sharing capabilities, we question the need for CNE to have a statutory role
                 in this effort. In 2008, CNE reported to Congress that the office was
                 merely a conduit for information. A DEA manager told us that he has
                 never seen any CNE intelligence products. CNE’s lack of a role in
                 creating such reports diminishes its value to other components that are
                 charged with counternarcotics operations. Additionally, an ONDCP
                 interdiction expert informed us that his work with CNE has been strained

15
   GAO, Combating Illicit Financing: Treasury’s Office of Terrorism and Financial Intelligence Could 

Manage More Effectively to Achieve Its Mission, GAO-09-794, September 2009. 

16
   House of Representatives, National Defense Authorization Act for Fiscal Year 2010, House Report 111­

166, page 377.
 


                     The Responsibilities of the Office of Counternarcotics Enforcement

                                                  Page 15
                and largely unproductive. This individual also said that it is impossible
                for CNE to perform the track and sever role. CNE has not been present at
                ONDCP’s weekly drug interdiction intelligence briefings and is not
                represented at DEA’s EPIC or SOD, although CNE is working to correct
                this. The range of existing operational experience and authority across
                various agencies moots CNE’s track and sever effort. That CNE has no
                operational role and cannot coordinate DHS operations may explain why
                ONDCP no longer designates the CNE Director to serve as USIC.

                A CNE manager provided us with plans for improving the effectiveness of
                CNE’s Drug-Terror Nexus Division. However, DHS operational
                components, as well as experts at DEA and other agencies, can facilitate
                information sharing based on extensive field experience and intelligence
                expertise. These organizations, not CNE, can most effectively track and
                sever narcoterror connections.

                The reality of CNE’s nonoperational status has led other agencies to act.
                The 2009 Interagency Cooperation Agreement between ICE and DEA
                notes that ICE attachés will work with DEA on overseas operations,
                deconflicting drug enforcement issues, and tracking and severing
                connections between illegal drug trafficking and terrorism. Interviewees
                said that CNE staff facilitated this action, which placed a CNE statutory
                responsibility into an operational component, where such authority can be
                implemented more effectively.

                A statutory change should reassign the track and sever function to another
                federal component with operational and law enforcement authority. CBP,
                ICE, or the USCG, in coordination with DEA, could more effectively
                implement this responsibility at DHS. As two counternarcotics experts
                wrote in 2008, “Since drug traffickers and terrorist groups are located in
                many of the same ungoverned locations, and use the same facilitation
                networks, the DEA is well positioned to address both threats, particularly
                as they overlap.”17

                We recommend that the Director, Office of Counternarcotics
                Enforcement:

                Recommendation #9: Pursuant to authority at 6 USC § 458(f)(2)(D),
                recommend to Congress that CNE be relieved of its track and sever
                responsibility.




17
  The Money Trail: Finding, Following, and Freezing Terrorist Finances, November 2008, page 17.
www.washingtoninstitute.org/pubPDFs/PolicyFocus89.pdf

                    The Responsibilities of the Office of Counternarcotics Enforcement

                                                 Page 16
CNE Should Remain in the Office of the Secretary
     The conference report for the FY 2010 DHS appropriations bill raised the
     issue of CNE’s placement within DHS. The report suggested it might be
     appropriate to shift the functions of CNE into the Office of Policy. We
     believe any reorganization is less important than the office’s needed
     revitalization. Because of the congressional interest in the question,
     however, we still wish to address where CNE should be located within the
     department. CNE should remain outside of the DHS operational
     components. Moving CNE into ICE, CBP, or the USCG could raise
     concerns about the office’s independence. CNE must work with agencies
     that have significant counternarcotics responsibilities and view each as an
     important partner. A perception of bias in CNE’s efforts could hamper the
     office’s ability to work with all DHS counternarcotics agencies.

     Interviewees provided their opinions concerning whether CNE should
     become part of the Office of International Affairs (OIA) or be under the
     control of the Office of Policy. Our interviewees were generally opposed
     to either move, or did not see value in a change.

     We concur with these views. Although international issues are a vital part
     of counternarcotics operations, CNE must work with various domestic
     stakeholders. Even if such linkages did not suffer after placement in OIA,
     the change would require modifications to OIA’s statutory authorities,
     which we do not view as preferable to CNE’s current location.

     Interviewees were also opposed to making CNE a subcomponent of the
     Office of Policy. Some suggested that such a change could enhance
     CNE’s authority within the department. However, we do not understand
     how distancing the Director of CNE from the Secretary will lead to the
     office’s empowerment. Another factor that argues against placing CNE in
     the Office of Policy is the CNE Director’s statutory role of being the
     Secretary’s principal counternarcotics advisor, which implies that the CNE
     Director should report directly to the Secretary. CNE’s current location in
     DHS is appropriate.

Management Comments and OIG Analysis
     CNE concurred with six of our nine recommendations. We evaluated
     CNE’s written comments and made changes to the report where we
     deemed appropriate. A summary of the CNE response to our
     recommendations and our analysis is included below. A copy of the entire
     CNE response is included as Appendix B.




        The Responsibilities of the Office of Counternarcotics Enforcement

                                     Page 17
Additional information that discusses actions taken on the
recommendations should be included in the CNE corrective action plan
due within 90 days of the issuance of this report.

Recommendation #1: Formally designate, in accordance with the
Intelligence Reform and Terrorism Prevention Act, a senior position in the
USCG, CBP, and ICE as Counternarcotics Liaison Officer

Management Comments to Recommendation #1

CNE concurred with this recommendation. The office believes that the
individuals designated by the Secretary as liaisons would form the
membership of the Counternarcotics Coordinating Council with the
Director of CNE. Senior leaders currently part of the Council are:

   o    CBP’s Deputy Commissioner
   o    ICE’s Deputy Assistant Secretary for Operations
   o    USCG’s Assistant Commandant for Operations
   o    I & A’s Principal Deputy Assistant Secretary
   o    The Deputy Director, Office of Operations Coordination, and
   o    The Deputy Assistant Secretary, Office of Policy

OIG Analysis

Although we directed this recommendation to the Secretary, we viewed
CNE’s response as reflective of the department’s view on the assignment
of liaisons to CNE. This recommendation is resolved and open pending
further developments in the selection of DHS liaisons to CNE. We concur
with CNE that liaisons must become a central component of the office’s
operations. The current membership of the Counternarcotics Coordinating
Council aligns perfectly with the statutory requirement. It may not be
difficult to add to the Council charter, if necessary, language that ties the
Council to the purposes of the statute. We suggest that CNE work closely
with the Office of the Secretary to ensure that liaisons are selected that
will best serve the department’s counternarcotics mission.

Recommendation #2: Create position descriptions and supporting
documents that specifically describe the duties and responsibilities of
detailees assigned to CNE.

Management Comments to Recommendation #2

CNE concurred with this recommendation. A template Memorandum of
Agreement, which includes position descriptions for detailees, has been
drafted. The first agreement is for an ICE detailee in CNE and should be


   The Responsibilities of the Office of Counternarcotics Enforcement

                                Page 18
finalized in March 2010. CNE views the detailees as important to the
development of the fulfillment of the office’s statutory responsibilities.

OIG Analysis

This recommendation is resolved and open pending additional information
on detailee position descriptions. CNE has taken credible action in this
area. Detailees will serve to facilitate day-to-day contact between
operational components and CNE. Equally important, they will bring
subject matter expertise gained at the component that is loaning them on
detail to CNE.

There is a significant difference between the responsibilities of senior
officers in other components who serve as designated liaisons and the
responsibilities of mid-level employees loaned by components to work as
detailees inside CNE. Senior liaisons, designated by the Secretary and
serving on the Counternarcotics Coordinating Council, work for the
directors of their components and closely with the CNE Director to steer
the DHS counternarcotics enterprise. Detailees perform CNE duties as
assigned under the supervision of CNE managers. One key role for the
detailees is to execute the interaction with components necessary for CNE
to fulfill the policy and budgetary responsibilities envisioned in the statute.

Recommendation #3: Develop a counternarcotics policy coordination
directive that would describe the procedures CNE would follow to fulfill
its statutory mandate to coordinate component counternarcotics policies.

Management Comments to Recommendation #3

CNE concurred with this recommendation. A series of steps has been
taken to improve departmental counternarcotics policy coordination. CNE
has developed an internal document that is guiding staff on issues related
to DHS policy. Additionally, the revitalized Counternarcotics
Coordination Council is designed to ensure CNE understands the priorities
of operational components. CNE reiterated its view that the use of
detailees will be an important means to effect necessary change in this
area.

OIG Analysis

This recommendation is resolved and open. CNE’s policy coordination
actions should help the office meet its policy coordination responsibilities.
However, CNE said that it would only consider the development of a
policy coordination directive. We believe that the directive is necessary to
guide CNE’s fulfillment of its statutory responsibility to coordinate policy.
Specific procedures and instructions for staff will augment CNE’s

   The Responsibilities of the Office of Counternarcotics Enforcement

                                Page 19
effectiveness as it works across government entities to meet the mandate
of policy coordination. Current office practices should be formalized with
a CNE directive. The office should not wait for detailee positions to be
filled before an internal policy coordination document is developed.

Recommendation #4: Establish a presence at the DEA Special
Operations Division to facilitate the statutory requirements to be a
representative of the department and facilitate policy coordination.

Management Comments to Recommendation #4

CNE did not concur with this recommendation. The office believes that
working with ICE and CBP representatives in the Special Operations
Division is a better approach than maintaining a CNE staff presence there.
The SOD neither coordinates policy nor engages in policy creation.
Rather, the SOD coordinates governmental analytical and investigations
resources related to counternarcotics. CNE does not believe that the
intelligence information sharing or case analysis functions performed at
the SOD are directly relevant to meeting the office’s statutory mandates.

OIG Analysis

CNE has a credible alternative to our recommendation. Through further
work with departmental components at the SOD, CNE should be able to
augment its policy coordination and representation roles without a direct
staff presence. This recommendation is resolved and open pending further
information about how CNE will meet the intention of the
recommendation. .

Recommendation #5: Create a standard operating procedure that
establishes policies for CNE’s interaction with state, tribal, and local law
enforcement agencies.

Management Comments to Recommendation #5

CNE concurs with this recommendation, and has created a plan to enhance
outreach to state, local, and tribal partners. This document will be
provided to the department’s Office of State and Local Law Enforcement.
CNE views the outreach plan as a way to improve contacts with a variety
of officials throughout the country. Through this improved flow of
information, CNE will be able to suggest ways for the department to meet
counternarcotics interdiction responsibilities.




   The Responsibilities of the Office of Counternarcotics Enforcement

                                Page 20
OIG Analysis

This recommendation is resolved and open pending further information
about implementation of the final outreach plan. CNE has made important
strides in its interaction with state, local, and tribal governments. As CNE
interacts more with these levels of government, it will be better positioned
to coordinate policy and serve as a departmental representative.

Recommendation #6: In the next report to Congress, recommend that
CNE coordinate policy only, rather than policy and operations.

Management Comments to Recommendation #6

CNE did not concur with this recommendation. After quoting the
statutory provision that prohibits its control over DHS operations, CNE
suggested that our various interviewees might have been concerned that
the statutory authority to coordinate counternarcotics operations would
lead CNE to control departmental operations. CNE noted that it
successfully coordinated the DHS position on two major counternarcotics
operations coordination operations in Mexico and the Caribbean.

OIG Analysis

This recommendation is unresolved and open. Through ongoing
improvements, CNE can successfully coordinate DHS counternarcotics
policy, but the office is not positioned to fulfill a role in the coordination
of operations. CNE receives some information on departmental operations
to coordinate policy and be a DHS representative, but coordination of
operations is outside the realm of an entity that has, by law, no authority
over DHS counternarcotics operations. Without authority to affect the
timing or scope of DHS counternarcotics operations, CNE cannot
coordinate them. We do not believe that CNE offers value as an
operational coordinator, although it can have a positive influence on
counternarcotics operational improvements. CNE’s partners in the field,
including CBP, ICE, and the Coast Guard, can most effectively coordinate
DHS operations.

Recommendation #7: Develop a standard operating procedure for the
DHS budget process that provides CNE an opportunity to review and
make recommendations on component budget requests before adoption by
the Office of the Chief Financial Officer.

Management Comments to Recommendation #7

CNE concurs with the recommendation. The office has worked with the
Office of Chief Financial Officer to ensure that CNE receives

   The Responsibilities of the Office of Counternarcotics Enforcement

                                Page 21
components’ budget requests. CNE also plans to increase its involvement
in the resource allocation process for future years. CNE will work with
component budget offices, as well, as a means to create a better
understanding of strategic priorities across the department’s
counternarcotics agencies. This will include work to make
recommendations to improve DHS mission performance.

OIG Analysis

This recommendation is resolved and open. We request that CNE use the
corrective action process to provide further updates on its budget
coordination and review responsibilities. Formalized policy is central to
this effort. CNE should also provide an update on how it has worked with
DHS resource allocation and budget staff to guarantee that budgets are
sent to CNE in a timely fashion. The policy would serve as the overall
vision of the important part that CNE must play in determining how DHS
budgetary practices will augment the department’s ability to interdict
illegal drugs.

Recommendation #8: Conduct ongoing strategic analysis of DHS
counternarcotics spending and resources across components.

Management Comments to Recommendation #8

CNE concurred with this recommendation by listing a variety of budget
coordination activities. These steps include CNE’s participation on
resource allocation teams and leadership’s interaction with the Deputy
Secretary’s Program Review Boards. Through these efforts, CNE engages
in strategic analysis that leads to recommendations about the proper level
of resources for DHS programs. CNE intends to provide representation on
all budget review teams. Additionally, program execution can be
reviewed through an examination of components’ annual reports. These
actions will lead to a better understanding of the department’s strategic
vision for counternarcotics. CNE will recommend overall enhancements,
as appropriate.

OIG Analysis

This recommendation is resolved and open. CNE’s response shows a
commendable level of commitment to the implementation of its budgetary
responsibilities. Our recommendation envisioned additional work in this
area, however. Congress has expressed an interest in receiving budget
reports with greater analytical rigor regarding DHS counternarcotics
spending. CNE should ensure that its work includes formal strategic
analysis of how DHS can better spend counternarcotics resources, which
we view as separate from the completed and planned contributions to the

   The Responsibilities of the Office of Counternarcotics Enforcement

                                Page 22
resource allocation process. This information is of interest to Congress
and is within CNE’s statutory responsibilities. Additional work on
department teams is a necessary component of this recommendation, but
CNE must also conduct independent analysis that will inform Congress of
possible efficiencies in DHS counternarcotics spending. CNE must also
consider the additional staff and resources it may need to fulfill both the
plans it has articulated and the more detailed analysis that is the intention
of this recommendation.

Recommendation #9: Pursuant to authority at 6 USC § 458 (f)(2)(d),
recommend to Congress that CNE be relieved of its track and sever
responsibility.

Management Comments to Recommendation #9

CNE did not concur with this recommendation. The office suggested that
Congress created the track and sever authority to position CNE as the
coordinator of the DHS counternarcotics enterprise, although CNE was
not given intelligence or law enforcement functions nor authority over the
counternarcotics operations of the components that do. CNE suggests that
it discharges this responsibility by leveraging the department’s
counternarcotics resources to enhance the tracking and severing of drug-
terror links. Through strategic analysis that assists components and
reports to the Secretary, CNE adds value to the track and sever effort.

OIG Analysis

This recommendation is unresolved and open. CNE’s past work in this
area does not seem to meet the responsibility created in the statute. No
operational component told us that CNE provides useful strategic analysis.
On the contrary, CNE is normally a consumer of analysis performed by
others. When CNE provides DHS components, the Secretary, or Congress
reports about drug-terror links, the office is not working within the Joint
Terrorism Task Force construct to track and sever connections between
illegal drug trafficking and terrorism. Even without this responsibility,
CNE may conduct research and share information on the linkages between
drug organizations and terrorist groups as part of its advisory, policy
coordination, and budgetary responsibilities. However, we concluded that
CNE is not positioned to lead the track and sever effort. Various parts of
the federal government are a better location for this responsibility. CNE
serves as a conduit for track and sever information developed largely by
others, but it is not equipped to be the primary office to sever drug-terror
connections. The fact that CNE staff facilitated changes to an
interdepartmental (ICE-DEA) agreement that gave a track and sever
function to ICE attachés is illustrative of those parts of the department that
are better equipped to fulfill the track and sever responsibility.

   The Responsibilities of the Office of Counternarcotics Enforcement

                                Page 23
Organizations that conduct counternarcotics intelligence work and
operations, arrest drug traffickers, and seize illicit narcotics are the best
entities to lead the government’s effort to prevent a union between
narcotics and terrorist activities.




   The Responsibilities of the Office of Counternarcotics Enforcement 


                                Page 24 

Appendix A
Purpose, Scope, and Methodology

                    We initiated this review based on our interest in determining the
                    effectiveness of CNE. We explored the office, its roles and
                    responsibilities, and its ability to fulfill statutory mandates. We
                    focused on CNE progress since its establishment in the Intelligence
                    Reform and Terrorism Prevention Act of 2004.

                    Our fieldwork consisted of 34 interviews, including each CNE
                    staff member, and experts at ICE, CBP, USCG, DEA, ONDCP, the
                    Office of Intelligence & Analysis, the Office of the Chief Financial
                    Officer, and the Office of Policy, and the former Director of CNE.
                    We also observed various meetings that included CNE personnel,
                    including weekly staff meetings that the new Acting Director led to
                    develop the office’s FY2010 goals.

                    This review initially began in January 2009. Shortly thereafter, it
                    was suspended because the review team needed to augment
                    another team that was completing Congressionally mandated work.
                    In June, the review resumed and fieldwork was completed in
                    November 2009 under the authority of the Inspector General Act
                    of 1978, as amended, and according to the Quality Standards for
                    Inspections issued by the President’s Council on Integrity and
                    Efficiency.




               The Responsibilities of the Office of Counternarcotics Enforcement 


                                            Page 25 

Appendix B
Management Comments to the Draft Report



                                                                         U_". l)<par1",n. or 1I~",,"nd S«uri'y
                                                                         W.,hinglOn. OC 20528



                                                                 iS~ Homeland
                                                                 e            Security
                                                March 3, 2010



     MEMORANDUM FOR:             Carlton I. Mann

                                 Office oflnspcetor Gcncrnl       .   n.. . 'rill.
                                 Assistant IlIsp«:tor General for Ins])C\:tions


     FROM:                       O~yling O. Williams    ~ O. 1ft W~
                                 Dlrcctor                     ~
                                 Ollicc ofCountemarcotics Enforcement

     SUBJECT:                    Draji Report: The Re~p(JIl.\·ihilities of/he Office vfCoullternarcotics
                                 Enforcemem - FOR OFFICIAl. USE ONLY (FOUO)

     The Office of Counlematootics Enforcement (CNE) appreeiatt'S the opportunity to review and
     comment on the Office of Inspector Gener-d's (OIG) report referenced above. We thank you for
     taking the time to meet with our staff and for Ihe thoroughness with whieh you approached your
     task. We sec this report as an oPJXlnunity to make positive, lasting improvements to CNE.

     We appreciate the aflinnative reference to the Countemarcotics Doctrine (CN Doctrine) and agree
     that it is a fundamentally important document thaI should have been produced shortly after the
     creation of the office. We are pleased 10 report that we ell;pecllo disseminate the CN Doctrine
     within a few weeks. In addition. we thank you for your constroctive comments regarding our
     Intellipcdia framework in support of our drog-lerror nexus mandate.

     CNE also appreciates the OIG 's strong endorsement for the Office to remain an independent entily.
     We concur wholeheartedly with this assessment. and believe the coordination ofcountemarcotics
     matters must reside within CNE. The legislation which crealed the Office specifically contemplated
     the need for an independent voice and advocate for the Department's cOllnternarcotics policies and
     resources.

     The folJowing are CNE's specific responses to each recommendation in the report:

     010 Recommendation I: "Formally designate, ill accordance with the Intelligence Refoml and
     Terrorism Prevention Act. :l senior position in the USCG, CBP, and ICE as Counternarcotics
     Liaison Officer."

        •   CNE Response: CNE agrees with lhis recommendation and believes it is necessary for the
            dcsignalion of liaisons to come from the Secrelary as the Chief Executive Officer of the
            Department. These senior liaisons would then fonn the membership of the COllnlel1llrrCotics




                   The Responsibilities of the Office of Counternarcotics Enforcement 


                                                 Page 26
 

Appendix B
Management Comments to the Draft Report




             Coordinating Council (Ccq with the CNE Director. The CCC Charter currently identifies
             the component membership to include the following representatives:
                 o Deputy Commissioner. U.S. Customs and Border Protection
                 o Deputy Assistant Secretary for Operations, U.S. Immigration and Customs
                    Enforc<,:ment
                 o Principal Deputy As~istant Secretary, Intelligence and Analysis
                 o Deputy Director, Office of Operations Coordination
                 o Deputy As~i~tant Secretary, Office of Policy
                 o A~sistant Commandant for Operations, United State~ Coast Guard

     DIG Recommendation 2: "Create position descriptions and supporting documents that specifically
     describe the duties and responsibilities of detailces assigned to CNE.~

         •   CNE Response; CNE concurs with the recommendation and has developed a template for a
             Memorandum of Agreement (MOA) between CNE and DHS Components for the
             assignment of detailees to CNE. This template inciudl..'S draft position descriptions to be
             included in the MOA. The first MOA, for an ICE detailee, is currently under final review
             and CNE expects to finalize the agrl..'Cmcnt in March 2010. CNE appreeiate~ the recognition
             the 010 gives 10 the importance of detailees in aceolllplishing CNE's mission. The
             assignment of detailees from Department components with counternareotics responsibilities
             is critical to the office's ability to effectively develop and coordinate counternareotics policy
             and operations.

     DIG Recommendation 3: "Develop a countemarcotics policy coordination directive that would
     describe the procedure~ CNE would follow to fulfill its statutory mandate to coordinate component
     counternarcotics policies."

         •   CNE Response: CNE agrees with this recommendation and has developed a "crosswalk" for
             internal use by staff to facilitate the office's ability to coordinate DI-IS component
             counternarcotics policies. In furtherance of this objective, CNE has reinvigorated the
             Counternarcotics Coordinating Council (Ccq - a senior-level advisory body comprised of
             representatives of the DHS countemarcotics components - the purpose of which is to align
             component CN priorities with CNE's efforts. In addition, CNE is now filling detailce
             positions with subjl..'Ct mailer experts from the Department's CN components. Based on this
             recommendation, CNE will give active consideration to creating a policy coordination
             directive.

     0[0 Recommendation 4; "Establish a presence at the DEA Special Operntions Division (SOD) to
     facilitate the slaltltory requirements to be a representative of the department and facilitate policy
     coordination."

        •    CNE Response: CNE disagrees with this recommendation and believes the best approach to
             working with SOD is to leverage existing ICE and CBP personnel already assigned there.
             The SOD is not a policy coordinating entity, nor docs it engage in countcrnarcotics policy
             fornlUlation. The function of SOD is to utilize criminal investigators and intelligence
             analysts from various federal law enforcement agencies to identify links between drug
             trafficking targets, and then coordinate investigative interagency operations under the




                   The Responsibilities of the Office of Counternarcotics Enforcement 


                                                  Page 27
 

Appendix B
Management Comments to the Draft Report




             auspices of the Organized Crime Drug Enforcement Task Forcc program. In ordcr to be
             assigned to SOD, you must be capable of supporting investigations either through
             investigative case analysis or intelligence information sharing.

     OIG Recommendation 5: "Create a standard opl;:rating procl'dure that establishes policies for
     CNE's interaction with state, tribal, and local law enforcement agencies."

         •   CNE Response: CNE concurs with this recommendation and has already dmfted a State,
             Local, and Tribal Outreach Plan. CNE will provide this plan to the DHS Office of State and
             Local Law Enforcement (SLLE) by March 15. 20 I O. This plan outlines an organized
             approach through which CNE can appropriately reach out to State, local. and tribal drug law
             enforcement authorities. By communicating with these stakeholders. CNE stall' will
             facilitate the fiow of information between entities most closely involved in countering the
             drug threat and more easily determine if and how DHS can assist those entities in fulfilling
             their countemareoties missions.

     O[G Recommendation 6: "In the nei<t report to Congress. recommend that CNE coordinatl;: policy
     only. rather than policy and operations."

         •   CNE Response: CNE disagrees with this recommendation and notes that per existing
             legislation CNE is tasked to coordinate. not direct, operations, thus leaving operational
             control to the components. Specifically, the legislation's Savings Clause states: "Nothing in
             this section shall be construed to authorize direct control of the operations conducted by the
             Directorate of Border and Transportation Security, the Coast Guard. or joint terrorism ta.~k
             forees.,,1 CNE believes it might be the case that component interviewees, as referenced in
             the report. may have been concerned about CNE controlling operations, rather than
             coordinating operational matters. CNE has successfully coordinated lhe Department's
             position on operational eountemarcoties mallers including air and marine support to
             Operation Bahamas, Turks, and Caicos (OPBAT) and air suppon to Mexico (through
             Opermion HALCON).

     OIG Recommendation 7: "Develop a standard operating procedure for the DHS budget process thaI
     provides CNE an opportunity to review componcnt requests before adoption by the Office oflhe
     Chief Financial Officer,"

        •    CNE Response: CNE agrees with this recommendation and has already re.engaged with
             DHS-CFO to ensure we ret:eive all component budget rl'quests. Component requests are
             always routed to CNE via the EXe<:utive Secretariat process, In the past, CNE has nol
             engaged in the Rl;:source Allocation Program review - at the le\'cl of Principal review-
             howeverCNE's Director \\~II engage in this process at this year's FY 12·16 FUlllre Years
             Homeland Security Program (FYHSP) Resourcc Allocation Plan Program Review Board.
             CNE will continue to engage with component budget offices to dctermine strategic
             rcsoureing priorities, formulate budget requests, and making rl;:Commendalions whl;:re
             appropriate for improving the Department's counternarcotics mission pcrfom\ance and
             elTectiveness.


     '6USC§458{f).




                     The Responsibilities of the Office of Counternarcotics Enforcement 


                                                  Page 28
 

Appendix B
Management Comments to the Draft Report




     OIG Recommendation 8: "Conduct ongoing strategic analysis of DHS counternarcotics spending
     and resources across components."

         •   CNE Response: CNE agrees with this recommendation and intends to continue its
             engagement in the Resource Allocation Plan production process. which inherently
             necessitates that CNE provide strategic analyses that support the Department's FYHSP
             report, and Homeland Security President's Budgt:t productiun. CNE's role has bt:en to
             provide strategic analyses via the Deputy Secretary's Resource Allocation Issue Teams. In
             FY 09. CNE provided analyses to four issue teams, most significantly the Border Control
             Issue Team. In FY 10, CNE wiJlllgain provide analyses and the CNE Director wiJ1
             participllte in the Deputy Secretary's Program Review Boards (PRO's) - where costs arc
             compared to the FYHSP guidance and recommend resourees tradeoff recommendations are
             conveyed to the Deputy Secretary and ultimately to the Secretary. The CNE DireelOr will
             participatc in the initial meeting of the FY 12· I6 FYHSP Resource Allocation Plan PRD on
             Mnreh 29, 2010 wherc DHS drug control agencies will present their proposed RAPs to the
             Deputy Secretary, who will subsequently identify FY 12·16 Issue Team projects. CNE will
             provide representatives to all CN-related Issue Teams and will monitor DHS Component
             rcsource execution through a regular review of the Components' arumal reports. CNE will
             make recommendations. where appropriate, to improvt: the Department's counternarcotics
             mission perfonnanee and dTectivem:ss.

     OIG Recommendation 9: "Pursuant to authority at 6 USC § 458 (t)(2Xd), recommend to Congress
     that CNE bt: relieved of its track and sever responsibility."

             CNE Response: CNE disagrees with this recommendation. Congress' intent in levying this
             requirement was to put CNE in the position of coordinating the DHS counternarcotics
             emerprisc, rather than mandating that CNE personnel conduct intelligence, investigations,
             and apprehensions. The current Congressional mandate facilitates CNE's ability to leverage
             the Department's intelligence and operational resources towards tracking and severing drug-
             terror links. This includes providing strategic analysis to assist our components in
             identifying the connections between drugs and terrorism. and reporting to the Secretary on
             strategic drug-terror issues.

     Thank you again for the opportunity to comment on this report.




                   The Responsibilities of the Office of Counternarcotics Enforcement 


                                                Page 29
 

Appendix C
Management Directive Number 6400


                               Department of Homeland Security
 

                                 Management Directive 6400 

                                    Issue Date: 10/05/2005 


               OFFICE OF COUNTERNARCOTICS ENFORCEMENT
                         MISSION AND FUNCTIONS

I. Purpose

The purpose of this Management Directive (MD) is to define the mission and functions of
the Department of Homeland Security’s (DHS) Office of Counternarcotics Enforcement
and to designate the Director, Office of Counternarcotics Enforcement, a direct report to
the Office of the Secretary, as the principal coordinating official for all DHS counter drug
policy matters.

II. Scope
 


This MD applies to all DHS Organizational Components.
 


III. Authorities 


The following law governs this MD:
 

Section 878 of the Homeland Security Act of 2002 (6 U.S.C. 458) as amended by the 

Intelligence Reform and Terrorism Prevention Act of 2004 (P.L. 108-458). 


IV. Definitions

None.

V. Responsibilities
 


Director, Counternarcotics Enforcement (DCNE) will:
 


A. Assume primary responsibility for developing and coordinating counter drug policy
within the Department and coordinating counter drug policy between DHS and other
Federal departments and agencies, and between DHS and State, local, and tribal agencies.




                     The Responsibilities of the Office of Counternarcotics Enforcement 


                                                  Page 30 

Appendix C
Management Directive Number 6400


B. Serve as the principal advisor to the Secretary for ensuring the adequacy of counter
drug resources within DHS.

VI. Policy & Procedures

A. Policy:

1. The DCNE reviews and evaluates the counter drug activities of the Department and its
components, including efforts in cooperating with other branches of the Federal
Government, State and local, or tribal agencies.

2. The DCNE reviews the budget requests of all DHS components with existing or
proposed counter drug activities or activities that affect the ability of the Department or
its components to meet counter drug policy objectives.

3. The DCNE recommends to the Secretary the appropriate financial and personnel
resources necessary to implement the Department’s counter drug policy and to achieve
performance targets within the Department’s counter drug policy.

4. The DCNE integrates DHS efforts to track and sever connections between illegal drug
trafficking and terrorism in cooperation and consultation with other Federal, State, local
and tribal agencies.

5. The DCNE serves as a DHS representative on all task forces, committees, or other
entities whose purpose is to coordinate the counter drug policy and activities of DHS and
other Federal, State, local, and tribal agencies and international partners.

6. The DCNE ensures that all DHS components are provided an opportunity to
participate, as appropriate, in all counter drug task forces, committees or other entities.

7. The DCNE reviews and provides comments on all reports that involve or have an
impact on the counter drug policies or activities of the Department and Departmental
components, including reports to Congress and other entities, including the Office of
National Drug Control Policy.

NOTE: Any reports generated by the Office of Counternarcotics Enforcement will follow
legislative procedures as outlined in MD 420 and other Department guidance as
appropriate.




                  The Responsibilities of the Office of Counternarcotics Enforcement 


                                               Page 31 

Appendix C
Management Directive Number 6400


8. The DCNE advises the Secretary on all policy and resource issues regarding the 

National Drug Control Strategy. 

NOTE: Nothing in this section shall be construed to authorize direct control of the 

operations conducted by any DHS component. 


B. Procedures:

1. Staffing: The Office of Counternarcotics Enforcement shall be staffed as follows:

a. The DHS Office of Counternarcotics Enforcement will be staffed by permanent
Federal employees.

b. Upon the request of the Director of the Office of Counternarcotics Enforcement, a
component of the Department shall designate a senior employee with significant counter
drug responsibilities to act as a liaison between the Departmental component and the
Office of Counternarcotics Enforcement.

c. The Office will seek to obtain liaisons from the non-DHS Departments and agencies
with significant counter drug interdiction and enforcement responsibilities to include the
Drug Enforcement Administration, Department of Defense, Federal Bureau of
Investigation, Department of State, the Intelligence community and others as appropriate.

2. Data: Departmental components shall provide all data and information identified by
the Director, Office of Counternarcotics Enforcement, as necessary to carry out the policy
and resource responsibilities of the Office as identified in Section V of this Management
Directive.

NOTE: Nothing in this section shall be construed to supersede legal restrictions on the
distribution or use of any data or other information.

VII. Questions

Address any questions or concerns regarding this MD to the Chief of Staff, Office of
Counternarcotics Enforcement.




                  The Responsibilities of the Office of Counternarcotics Enforcement 


                                               Page 32 

Appendix D
Majors Contributors to this Report

                     Douglas Ellice, Chief Inspector, Office of Inspections
                     Lorraine Eide, Senior Inspector, Office of Inspections
                     Darin Wipperman, Senior Inspector, Office of Inspections
                     LaDana Crowell, Inspector, Office of Inspections
                     Michael Brooks, Inspector, Office of Inspections
                     Susan Fischer, Inspector, Office of Inspections
                     Megan Reedy, Inspector, Office of Inspections
                     Ericka Kristine Odiña, Inspector, Office of Inspections




                The Responsibilities of the Office of Counternarcotics Enforcement 


                                             Page 33 

Appendix E
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      Deputy Chiefs of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Director, Office of Counternarcotics Enforcement


                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                The Responsibilities of the Office of Counternarcotics Enforcement 


                                             Page 34
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
